No. _________
IN THE SUPREME COURT OF THE UNITED STATES

SHAWN TRAVIS PASCHAL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Kevin Joel Page
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-11056, dated
April 19, 2021, United States v. Paschal, 844 Fed. Appx. 752
(unpublished).
Appendix B Judgment and Sentence of the United States District Court
for the Northern District of Texas, entered October 8, 2020.
United States v. Paschal, Dist. Court 5:20-CR-00034-H-BQ (1).

APPENDIX A

Case: 20-11056

Document: 00515826884

Page: 1

Date Filed: 04/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
April 19, 2021

No. 20-11056
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Shawn Travis Paschal,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:20-CR-34-1
____________________________
Before King, Smith, and Wilson, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-11056

Document: 00515826877

Page: 1

Date Filed: 04/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 19, 2021

No. 20-11056
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Shawn Travis Paschal,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:20-CR-34-1
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Shawn Travis Paschal was sentenced to 78 months of imprisonment
followed by 20 years of supervised release after pleading guilty to possession
of child pornography involving a prepubescent minor in violation of

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-11056

Document: 00515826877

Page: 2

Date Filed: 04/19/2021

No. 20-11056

18 U.S.C. § 2252A(a)(5)(B) and (b)(2). The district court imposed a special
condition of supervised release that provided:
[t]he defendant shall have no unsupervised contact with
persons under the age of 18, nor shall the defendant loiter near
places where children may frequently congregate. The
defendant shall neither seek nor maintain employment or
volunteer work at any location and/or activity where persons
under the age of 18 congregate and the defendant shall not date
or befriend anyone who has children under the age of 18,
without prior permission of the probation officer.
On appeal, Paschal contends that the district court erred in
(1) prohibiting him from having unsupervised contact with minors for 20
years; (2) prohibiting him from dating or befriending anyone with children;
(3) forbidding him for 20 years from loitering near places where children may
congregate; and (4) engaging in impermissible judicial factfinding.
Because Paschal did not object to his sentence or the conditions of
supervised release when allowed to do so, we review these claims only for
plain error. See United States v. Dean, 940 F.3d 888, 890 (5th Cir. 2019). To
demonstrate plain error, a defendant has the burden of showing “(1) an error
(2) that is clear or obvious, (3) that affects substantial rights, and (4) that
seriously affects the fairness, integrity, or public reputation of judicial
proceedings.” United States v. Izaguirre, 973 F.3d 377, 380 (5th Cir. 2020)
(quoting United States v. Huor, 852 F.3d 392, 398 (5th Cir. 2017)).
The district court did not plainly err in prohibiting Paschal from
having unsupervised contact with minors for 20 years. Although he argues
that the special condition’s length renders it overbroad and that the
prohibition is plainly erroneous because there is no evidence that he engaged
in any sexual abuse or attempted to contact a child for such a purpose, we
routinely uphold conditions limiting a defendant’s ability to associate with
minors, particularly when the conditions are limited in scope and duration.

2

App. A 003

Case: 20-11056

Document: 00515826877

Page: 3

Date Filed: 04/19/2021

No. 20-11056

See United States v. Duke, 788 F.3d 392, 401–02 (5th Cir. 2015). Moreover,
because the images involved in this case depicted or suggested children
engaging in sexual conduct with adults, limiting unsupervised contact with
minors did not overly restrict Paschal’s liberty.

See United States v.

Buchanan, 485 F.3d 274, 288 (5th Cir. 2007).
Likewise, the district court did not plainly err in prohibiting Paschal
from dating or befriending anyone with children. Paschal argues that this
provision is overbroad because there is no evidence that he has used an adult
relationship to gain access to children and that the condition is vague because
it is unclear what constitutes dating or friendship. While this prohibition may
not be related to his offense conduct or his personal history, the prohibition
on dating or befriending anyone with children is reasonably related to the
need “to advance deterrence, protect the public, and advance [Paschal’s]
correctional needs.” See Huor, 852 F.3d at 398. Additionally, this provision
is not unduly vague because it provides Paschal fair notice of when he must
notify and seek approval from his probation officer. See United States v. Ellis,
720 F.3d 220, 227–28 (5th Cir. 2013).
The district court also did not plainly err in prohibiting Paschal from
loitering near places where children congregate.

Paschal is unable to

demonstrate that the imposition of this prohibition was clearly erroneous
because, again, the restriction on his loitering where children congregate is
reasonably related to the need “to advance deterrence, protect the public,
and advance [Paschal’s] correctional needs.” See Huor, 852 F.3d at 398.
Moreover, this court has upheld lifetime locational bans even in situations
where the defendant did not have a history of targeting children in public
places. See Ellis, 720 F.3d at 226.
Finally, the district court did not engage in impermissible judicial
factfinding when it relied on the number of images involved in determining

3

App. A 004

Case: 20-11056

Document: 00515826877

Page: 4

Date Filed: 04/19/2021

No. 20-11056

Paschal’s sentence. This argument is foreclosed by United States v. Tuma,
738 F.3d 681, 693 (5th Cir. 2013), because the number of images involved
here only influenced the judge’s judicial discretion and did not alter a
mandatory minimum sentence.
Based upon the foregoing, the district court did not err in sentencing
Paschal, much less plainly err. Accordingly, the judgment of the district
court is AFFIRMED.

4

App. A 005

APPENDIX B

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20

Page 1 of 8 PageID 106

UNrrpo Srergs DrsrRrcr Counr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

LINITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

s
s
s

SHAWN TRAVIS PASCHAL

I

Case Number:

s

USM Number: 60252-177
David E. Sloan

5

5:20-CR-00034-H-BQ(1)

Defendanas Attomey

5

THE DEFENDANT:

tr

pleaded guilty to count(s)

x

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court

tr
tr

I ofthe indictment filed March

11,2020.

was found guilty on count(s) after a plea ofnot guilty

The defendant is adjudicated guilfy ofthese offenses

Title & Section / Nature of Offens€
l8 U.S.C. ii$ 22524(aX5XB)

and 2252A(b)(2) PoSSESSION OF

Offense Ended
CHILD PORNOGRAPHY

I

I

5t2019

Count
I

INVOLVING A PREPUBESCENT MINOR

The defendant is sentenced as provided in pages 2 through 8 ofthisjudgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

E
[l

The defendant has been found not guilty on count(s)

Remaining count(s) are dismissed on the motion ofthe United States

It is ordered that the defendanl must notiry the United States attomey for this district within 30 days ofany change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notiry the court and United States attorney of material changes in economic
circumstances.

October 8. 2020
Date of lmposition of Judgment

,14/ >,
ofJudge

s

J

k

/,1

Wesley Hendrix
ited States District Judge

Name and l itle ofJudge

October 8, 2020
Dale

App. B 001
20-11056.77

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 2458 (Rev. IXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 2 of 8 PageID 107

Criminal Case

Judgmcnt-Page2of8

ST{AWN TRAVIS PASCHAL

5:20-CR-00034-H-Be(l)

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau of prisons to be imprisoned
for a total term of:
78 months as to count I to run concurrently wilh any sentence imposed in Case No. 20l9-418,831 pending in the 1406
District Court,
Lubbock County, Texas.

X

The court makes the following recommendations to the Bureau

ofhisons: Incarceration at FCI Seagoville, Texas.

The Court recommends that, while incarcerated, the defendant receive appropriate mental-health treatment, but the Court did not
Iengthen the defendant's prison term to promote rehabilitation. See Tapia t. tJnited States,564 U.S.3l9 (201 l).

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall sunender to the United States Marshal for this district:

E at
tr
tr

as

n a.m. n p.-.

on

notified by the United States Marshal.

The defendant shall surrender for service ofsentence at the institution designated by the Bureau ofPrisons

tr
tr
tr

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RBTURN
I have executed thisjudgment as follows

Defendant delivered on

at

to

with

a

certihed copy ofthis judgment.

UNTIED STATES MARSHAL

Bv
DEPUTY UNITED STATES MARSHAL

App. B 002
20-11056.78

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:
CASE NUMBER:

a

Page 3 of 8 PageID 108

Criminal Case

Judgment-Page3of8

SHAWNTRAVISPASCHAL
5:20-CR-00034-H-BQ( I )

SUPERVISED RELEASE
Upon release fiom imprisonment, the defendant shall be on supervised release for a term

ol

Twenty (20) years.

MANDATORY CONDITIONS

l.
2.
3.

You must nol commit another federal, state or local crime.
You must nol unlawfully possess a contlolled substance.
You must refiain ftom any unlawful use ofa controlled substance. You must submit to one drug test within l5 days ofrelease
fiom imprisonment and at least two periodic drug tests thereafter, as determined by the court.

!

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4. E

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 36634 or any other statute authorizing a sentence
of restitution. (check if applicable)

5. X
6. X

You must cooperate in the collection of DNA as directed by the probation officer. (check ifapplicable)

7. n

You must participate in an approved program for domestic violence. (check ifapplicable)

You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. $ 20901, et
seq.) as directed by the probation omcer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifoing offense. (check if applicable\

You must comply \ryith the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

App. B 003
20-11056.79

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 2458 (Rev. TXN 9/19) Judgmenr in

DEFENDANT:
CASE NUMBER

a

Page 4 of 8 PageID 109

Criminat Case

Judgmcnt-Page4of8

SHAWN TRAVIS PASCHAL
:20-CR-00034-H-BQ( 1 )

5

STANDARD CONDITIONS OF SUPERVISION
As paft ofyour supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identi$, the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.

l. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours ofyour
release from imprisonment, unless the probation officer insfiucts you to report to a different probation otlce or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer fiuthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as the peopl€ you live with), you must notiry the probation officer at least l0 days before the change. Ifnotifying
the probation otl]cer in advance is not possible due to unanticipated circumstances, you must noti8/ the probation officer within 72
hours of becoming aware ofa change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. Ifyou do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. Ifyou plan to change where you work or anything about your work (such as your position or yourjob
responsibilities), you must notiry the probation officer at least l0 days before the change. If notifoing the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notifo the probation officer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has been
convicted ofa felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe

probation officer.
are anested or questioned by a law enforcement officer, you must notiry the probation olTicer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).
I l. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

9.

Ifyou

without first getting the permission ofthe coufi.
12. lfthe probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notiry the person about the risk ard you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instrxctions ofthe probation officer related to the conditions ofsupervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me \Mith a
written copy ofthisjudgment containing these conditions. I understand additional information regarding these
ov.
conditions is available at www.txn
Defendant's Signature

Date

App. B 004
20-11056.80

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 2458 (Rev.
DE

T\N

Page 5 of 8 PageID 110

9/19) Judgment in a Criminal Case

FENDANT:

ludgment-Page5of8

SI{AWN TRAVIS PASCHAL

CASE NUMBER:

5

:20-CR-00034-H-BQ(1 )

SPECIAL CONDITIONS OF SUPERVISION

l.

The defendant shall have no unsupervised contact with persons under the age of 18, nor shall the
defendant loiter near places where children may frequently congregate. The defendant shall
neither seek nor maintain employment or volunteer work at any location andior activity where
persons under the age of i8 congregate and the defendant shall not date or befriend anyone who
has children under the age of 18, without prior permission ofthe probation officer.

2

The defendant shall neither possess nor have under his control any sexually oriented, or sexually
stimulating materials of adults or children. The defendant shall not patronize any place where
such material is available.

J

The defendant shall not possess, have access to, or utilize a computer or Intemet connection
device, including, but not limited to Xbox, PlayStation, Nintendo, or similar device, without
permission ofthe probation officer. This condition requires preapproval for categories of
computer or Intemet access or use; it does not require separate pre-use approval every time the
defendant accesses or uses a computer or the Internet.

4

The defendant shall participate in sex offender treatment services as directed by the probatton
olficer until successfully discharged. These services may include psycho-physiological testing
(i.e., clinical polygraph, plethysmograph, and the ABEL screen) to monitor the defendant's
compliance, treatment progress, and risk to the community. The defendant shall contribute to the
costs ofservices rendered (copayment) at a rate ofat least $25.00 per month.

5

6.

The defendant shall participate in mental health treatment services as directed by the probation
officer until successfully discharged. These services may include medications prescribed by a
licensed physician. The defendant shall contribute to the costs ofservices rendered (copayment)
at a rate ofat least $40.00 per month.
The defendant shall participate in a program (inpatient andior outpatient) approved by the lJ.S.
Probation Office for treatment ofnarcotic, drug, or alcohol dependency, which will include
testing for the detection of substance use or abuse. The defendant shall abstain from the use of
alcohol and/or all other intoxicants during and after completion of treatment. The defendant
shall contribute to the costs ofservices rendered (copayment) at a rate ofat least $40.00 per
month.

App. B 005
20-11056.81

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20

Page 6 of 8 PageID 111

AO 2458 (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgmcnt -- Page 6

of8

SI{AWNTRAVISPASCHAL
5:20-CR-00034-H-BQ(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule ofpayments page.
Assessmen

TOTALS

tr
tr

Restitution

Fine

AVAA Assessment*

JVTA Assessment**

$.oo

$.00

$.00

s.00

$100.00

until

The determination ofrestitution is defered
An Amendetl Judgment in a Criminql Case (AO215C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amounl listed below.

If the delendant makes a partial payment, each payee shall receive an approximately proportioned payment. However. pursuant
[J.S.C. { 3664(i), a1l nonfederal victims must be paid belbre the United States is paid.

tr
tr
tr

to

I8

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine ofmore than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date ofthejudgment, pursuant to l8 U.S.C. $ 3612(f)- All of the payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. $ 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

E fine
E fine

tr
tr

restitution
restitution is modified as follows:

* Amy, Vicky,

and Andy Child Pomography Victim Assistance Act of 2018, Pub. L. No. I l5-299.
Justice for Victims ofTrafficking Act of20l5. Pub. L. No. I l4-22
*** Findings for the total amount oflosses are required under Chapters 109A, I 10, I l0A, and I l3A
September 13, 1994. but before Aptil23.1996.

**

ofTitle

18 for offcnses commifted on or after

App. B 006
20-11056.82

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDAN'f

a

Page 7 of 8 PageID 112

Criminal Case

Judgment-Page7of8

SHAWN TRAVIS PASCHAL
5:20-CR-00034-H-BQ( I )

:

CASE NUMBER:

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows:

A tr

Lump sum payments of $

E

not later

tr

in

due immediately, balance due

than

, or

accordance tr C,

tr D,

B E

Payment to begin immediately (may be combined

C

Payment in equal

E

tr

with tr

E,

C,

E

(e.g., months or years), to commence

E tr

a

F below; or

tr

D,

term of supervision;
or

of$

or

tr

_

F below); or

over a period

of

(e.g., 30 or 60 days) after the date of this judgment; or

Payment in equal 20 (e.g., weekly, monthly. qu.trterly) installments

to

tr

(e.g., weekly, monthly, qaqrterly) installments
(e.g., months or years), to commence

D

or

_

of$

over a period

of

(e.g., 30 or 60 days) after release fiom imprisonment

Payment during the term ofsupervised release will commence within
(e.g., 30 or 60 days.l after release
ftom imprisonment. The court will set the payment plan based on an assessment ofthe defendant's ability to pay at that

time: or
F

X

Special instructions regarding the payment ofcriminal monetary penalties:

It is ordered that the Defendant shall pay to the United States a special assessment of$100,00 for Count 1, which
shall be due immediately. Said special assessment shall be paid to th€ Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, ifthisjudgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. AII criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to the clerk ofthe court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed

E

Joint and Several

for Defendant and Co-Defendant Names and Case Numbers firclrdi ng defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if apgopriate.

See above

tr
n
n

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following coufi cost(s):
The defendant shall forfeit the defendant's interest in the following property to the Uniled States:

Payments shall be applied in the following order: (l ) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs,

including cost ofprosecution and court costs.

App. B 007
20-11056.83

Case 5:20-cr-00034-H-BQ Document 41 Filed 10/08/20
AO 245ts (Rcv. TXN 9/19) Judgment in

DEFEN DANT:
CASE NUMBER:

a

Criminal Case

Page 8 of 8 PageID 113
Judgment-Page8of8

STIAWN TRAVIS PASCHAL
s :20-CR-00034-H-BQ( I )

FORFEITED PROPERTY
Pursuant to 18 U.S.C. $ 2253(a) and Fed. R. Crim. P. 32.2(bX4XB), it is hereby ordered that defendant's
interest in the following property is condemned and forfeited to the United States: one Samsung Galary
5, Model SM-G900V, Serial No. 990004043478135.

App. B 008
20-11056.84

